 OFFICE OF AUDIT
 REGION 5
 CHICAGO, IL




          Flint, MI Housing Commission’s
   American Recovery and Reinvestment Act Public
           Housing Capital Fund Grants




2012-CH-1013                      SEPTEMBER 27, 2012
                                                        Issue Date:    September 27, 2012

                                                        Audit Report Number: 2012-CH-1013




TO:            Willie C. Garrett, Director of Public Housing, 5FPH



FROM:          Kelly Anderson, Regional Inspector General for Audit, Chicago, IL, 5AGA

SUBJECT:       The Flint Housing Commission, Flint, MI, Did Not Always Administer Its Grants
               in Accordance With Recovery Act, HUD’s, and Its Own Requirements


    Enclosed is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), final report of our audit of the Flint Housing Commission’s American
Recovery and Reinvestment Act Public Housing Capital Fund competitive grants.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
(312) 353-7832.
                                             Date of Issuance      September 27, 2012
                                             The Flint Housing Commission, Flint, MI, Did Not
                                             Always Administer Its Grants in Accordance With
                                             Recovery Act, HUD’s, and Its Own Requirements



Highlights
Audit Report 2012-CH-1013


    What We Audited and Why
                                              What We Found
We audited the Flint Housing
Commission’s American Recovery and           The Commission generally complied with the
Reinvestment Act of 2009 Public              requirements of the Davis-Bacon Act for all four of its
Housing Capital Fund competitive             Recovery Act competitive grants. However, it failed
grants. We selected the Commission           to follow HUD’s and its own procurement
based upon our analysis of risk factors      requirements for its Recovery Act competitive grants.
relating to the housing agencies in          Specifically, it did not (1) provide an adequate
Region 5’s 1 jurisdiction. Our objective     rationale for using a noncompetitive procurement
was to determine whether the                 method for its Recovery Act contracts, (2) prepare an
Commission administered its grants in        independent cost estimate or analysis before the
accordance with Recovery Act, HUD’s,         solicitation of offers, and (3) obtain approval from
and its own requirements. This is the        HUD and its board before revising its plan for use of
first of two planned audit reports on the    the funds. Additionally, the Commission did not (1)
Commission’s Recovery Act grants.            issue payments to its contractor in accordance with
                                             HUD’s requirements and (2) ensure that its contractor
                                             included Section 3 clauses in contracts for work
    What We Recommend
                                             funded by the Recovery Act grants. As a result, the
                                             Commission hindered full and open competition, and
We recommend that the Director of            HUD and the Commission lacked assurance that more
HUD’s Detroit Office of Public               than $3.1 million in Recovery Act competitive grant
Housing require the Commission to (1)        funds was used appropriately.
reimburse HUD more than $3 million in
grant funds for the inadequate
procedures used in the procurement
process and (2) implement adequate
procedures and controls to ensure that
contracts are awarded and managed in
accordance with HUD’s requirements
and its own procurement policy.



1
 Region 5 includes the States of Illinois,
Indiana, Michigan, Minnesota, Ohio, and
Wisconsin.
Indiana, Michigan, Minnesota, Ohio, and
Wisconsin,
                            TABLE OF CONTENTS

Background and Objective                                                         3

Results of Audit
      Finding:      The Commission Failed To Follow HUD’s and Its Own Procurement
                    Requirements for Its Recovery Act Competitive Grants          5

Scope and Methodology                                                           18

Internal Controls                                                               20

Appendixes
A.    Schedule of Questioned Costs and Funds To Be Put to Better Use            22
B.    Auditee Comments and OIG’s Evaluation                                     23
C.    Federal and the Commission’s Requirements                                 30




                                            2
                       BACKGROUND AND OBJECTIVE

The Flint Housing Commission operates a public housing program that consists of 10 low-
income housing communities with 1,248 units including 133 scattered sites throughout Flint, MI.
The following four housing projects received American Recovery and Reinvestment Act of 2009
competitive grant funds: Richert Manor, Howard Estates, Centerview Apartments, and Mince
Manor. Richert Manor is a 132-unit single-room highrise building. Howard Estates is a family
site that consists of 96 townhouses. Centerview Apartments is a 90-unit, one-bedroom complex.
Mince Manor is a 110-unit complex for the elderly.


The Commission was established by the City of Flint, Michigan, on July 27, 1964. The
Commission’s primary funding source is the U.S. Department of Housing and Urban
Development (HUD) under the regulation of the State of Michigan’s Act 18 of 1933, MCL
125.651-709e. A five-member board of commissioners is appointed by the mayor of Flint to
serve a 5-year term. The executive director, appointed by the board, is responsible for general
supervision over the administration of the Commission’s business and is charged with the
management of its housing projects. The commission administers the projects under its annual
contributions contract with HUD.

On February 17, 2009, the President signed the Recovery Act. The Recovery Act provided an
additional $4 billion to public housing agencies to carry out capital and management activities,
including the modernization and development of public housing. The Recovery Act required that
$3 billion of these funds be distributed as formula grants and the remaining $1 billion be distributed
through a competitive process. In March 2009, the Commission received a formula grant of more
than $2.5 million, and in September 2009, it received four competitive grants, which totaled more
than $3.1 million. Of the $3.1 million in Recovery Act competitive funds, Richert Manor (grant
number MI00900000109R) received $670,535, Howard Estates (grant number MI00900000209R)
received $884,312, Centerview Apartments (grant number MI00900000609R) received more than
$1.1 million, and Mince Manor (grant number MI00900001109R) received $445,939.

The competitive grant funds may be used to carry out priority capital and management activities at
public housing projects. Specifically, these competitive grant funds were used by the Commission
in projects for category 4, option 2, the creation of energy-efficient, green communities – moderate
rehabilitation, of HUD’s Notice of Funding Availability, dated June 3, 2009.

According to the Recovery Act, the Commission was required to obligate 100 percent of its
competitive grant funds within 1 year, expend 60 percent of the funds within 2 years, and fully
expend the funds within 3 years. As of March 2010, the Commission had obligated 100 percent of
its competitive grant funds and as of June 2011, it had expended 100 percent of the funds.

For the fiscal years ending June 30, 2009, and June 30, 2008, HUD designated the Commission
as substandard physical based on poor physical inspection reports. Since this designation
classified the Commission as a troubled public housing agency, execution of the Recovery Act
annual contributions contract amendments was the Commission’s acknowledgement and


                                                  3
agreement to additional monitoring and oversight by HUD as deemed necessary in order to
ensure proper use of the Recovery Act capital funds. The Commission was notified of HUD’s
minimum baseline strategy of monitoring and oversight, which included a manual review of all
of its Recovery Act capital fund grants.

Our objective was to determine whether the Commission administered its Recovery Act
competitive grants in accordance with HUD’s requirements and its own policies. Specifically,
we wanted to determine whether it followed HUD’s and its own procurement requirements for
its Recovery Act competitive grant activities.




                                              4
                                RESULTS OF AUDIT
Finding: The Commission Failed To Follow HUD’s and Its Own
Procurement Requirements for Its Recovery Act Competitive Grants
While the Commission generally complied with the requirements of the Davis-Bacon Act, it
failed to follow HUD’s and its own procurement requirements for all four of its Recovery Act
competitive grants. Specifically, it did not (1) provide an adequate rationale for using a
noncompetitive procurement method for its Recovery Act competitive grant contracts, (2)
prepare an independent cost estimate or analysis before the solicitation of offers, and (3) obtain
approval from HUD and its board before it revised its plan for the use of the funds. Additionally,
the Commission did not (1) issue payments to its contractor in accordance with HUD’s
requirements and (2) ensure its contractor included Section 3 clauses in contracts for work
funded by the Recovery Act grants. The deficiencies occurred because the Commission
misapplied HUD’s requirements regarding the method of procurement and lacked adequate
procedures and controls to administer its grants. Further, it did not have an adequate contract
administration system. As a result, the Commission hindered full and open competition, and
HUD and the Commission lacked assurance that more than $3.1 million in Recovery Act
competitive grant funds was used appropriately.



 The Commission Did Not Use
 the Proper Method of
 Procurement

               The Commission received more than $3.1 million in Recovery Act funds to
               implement category 4, option 2, the creation of energy-efficient green
               communities – moderate rehabilitation, of HUD’s Notice of Funding Availability,
               dated June 3, 2009 for four of its projects. The four projects included Richert
               Manor (grant number MI00900000109R), Howard Estates (grant number
               MI00900000209R), Centerview (grant number MI00900000609R), and Mince
               Manor (grant number MI00900001109R).The Commission entered into four
               contractual agreements for its four Recovery Act competitive grants that were
               awarded by HUD. We reviewed the procurement process for the four agreements
               to determine whether the Commission obtained the contracted services in
               accordance with HUD’s regulations and its own Capital Fund Stimulus Grant
               procurement policy during the audit period March 18, 2009 through September
               30, 2011, expanded as necessary. While the Commission generally complied with
               the Davis-Bacon Act requirements, we identified deficiencies with the
               Commission’s method of procurement, cost reasonableness methods, grant
               activities performed, contract payments, and Section 3 compliance.



                                                5
The Commission failed to use the proper method of procurement for all four of its
grants’ contractual agreements. The contractual agreements ranged in price from
$445,939 to more than $1.1 million. Since the contractual agreements were all
above $100,000, section IV, part A of the Commission’s procurement policy
stated that board approval was required and either the sealed bids or proposal
method of procurement should be used. However, the Commission used the
noncompetitive method of procurement and sole sourced all four contractual
agreements to Siemens Building Technologies without maintaining an adequate
rationale as required by 24 CFR (Code of Federal Regulations) 85.36(b)(9).

The Commission failed to maintain evidence that the following conditions existed
to support its use of the noncompetitive method of procurement as required by
section IV, part G, of its procurement policy:

1. The items (energy-efficient windows, roof replacement, and green roof) were
   available only from a single source, based on a good faith review of available
   sources. The Commission did not maintain a good faith review of available
   sources. We determined that grant-funded activities, including energy-
   efficient windows, roof replacement, etc., were available from many sources
   in the State of Michigan and across the United States.

2. An emergency existed that seriously threatened the public health, welfare, or
   safety or endangered property or would otherwise cause serious injury. In
   such cases, there must be an immediate and serious need for supplies,
   services, or construction such that the need cannot be met through any of the
   other procurement methods, and the emergency procurement should be
   limited to those supplies, services, or construction necessary to meet the
   emergency. The Commission and its contractor, Siemens, said that the
   President of the United States’ emphasis on job creation was the exigent
   circumstance for bypassing the competitive methods of procurement.
   However, section VI.B.1 of HUD’s Notice of Funding Availability, dated
   June 3, 2009, states that the Commission had 1 year to obligate funds. Section
   VI.B.3 of the notice states that if solicitation of a proposal is from only one
   source or if the public housing agency finds that after solicitation of a number
   of sources, that competition is inadequate, the public housing agency may
   award the contract noncompetitively when small purchase procedures, sealed
   bids, or competitive proposals are infeasible.

   As discussed below, the Commission did not solicit proposals for its
   competitive grant activities. Further, Office of Management and Budget
   (OMB) Memorandums M-09-10 and M-09-15, section 6.1, state that the
   critical importance of the Recovery Act and the funds it will make available to
   stimulate the American economy requires heightened management attention to
   acquisition planning to mitigate schedule, cost, and performance risk; obtain
   maximum practicable competition; provide appropriate agency oversight at
   critical decision points; etc. Although the memoradums required agencies to
                                 6
              commence expenditures and activities as quickly as possible consistent with
              prudent management, this statement, by itself, does not constitute a sufficient
              justification to support award of a Federal contract on a noncompetitive basis.
              Agencies are expected to follow the same laws, principles, procedures, and
              practices in awarding noncompetitive contracts with Recovery Act funds as
              they do with other funds.

           3. The Commission must make available, upon HUD request, its Capital Fund
              Stimulus Grant procurement policy and any documents requested related to
              the procurement activity as stated in 24 CFR 85.36(g). Since it was a troubled
              public housing agency, execution of the Recovery Act annual contributions
              contract amendment was the Commission’s acknowledgement and agreement
              to additional monitoring and oversight by HUD as deemed necessary to
              ensure proper use of the Recovery Act capital funds. This requirement
              included submission of the obligation submission approval request. The
              request stated that each public housing agency received a letter stating the
              minimum baseline strategy for monitoring and oversight. The strategy stated
              that before obligation, all award documents (such as solicitations, contracts,
              and board resolutions when applicable) must be submitted for review and
              approval. To expedite the approval of planned obligations, a two-part review
              process for all procurement actions was developed.

              Part I of the review process consisted of a review of the bid and solicitation
              process employed by the public housing agency, which must have been
              completed and approved before advertising and soliciting bids. Part II of the
              review process entailed a review of the public housing agency’s determination
              of successful respondents and must have been completed before award of the
              contract. After submission of a completed package, HUD would review and
              approve the obligating documents within 10 business days and provide written
              notification to the public housing agency that it could either proceed with the
              bid and solicitation or award the procurement action and report the obligation
              in HUD’s Line of Credit Control System. The Commission submitted both
              parts I and II of its obligation submission approval request packages in June
              2010, after it executed its contracts with Siemens in February and March
              2010. Further, the obligation submission approval request packages did not
              indicate that the Commission advertised or solicited bids.

           4. The Commission failed to solicit any sources to determine that competition
              was inadequate, and it did not require its sole-sourced contractor to submit a
              proposal for evaluation in accordance with section 8.4 of HUD’s Handbook
              7460.8, Revision-2 (handbook).

The Commission Did Not
Prepare an Independent Cost
Estimate or Cost Analysis

                                            7
          The Commission failed to prepare an independent cost estimate for its four
          Recovery Act competitive grants. Section 3.2 of HUD’s handbook states that an
          independent cost estimate is the public housing agency’s estimate of the cost of
          the goods or services to be acquired under a contract or a modification. It assists
          the public housing agency in evaluating the reasonableness of the contractor’s
          proposed costs or prices. It also helps the contracting officer to determine the
          contracting method to be used. The independent cost estimate must be prepared
          before the solicitation of offers.

          The Commission also failed to perform a cost analysis for its four grants. Section
          10.3 of HUD’s handbook states that for every procurement, public housing
          agencies are required to perform a cost or price analysis to determine that the
          price is reasonable. In noncompetitive situations, no incentive exists for an
          offeror to submit a low price, and no price competition exists for determining the
          reasonableness of the price; therefore, a cost analysis must be conducted.
          Construction contracts awarded using any method other than sealed bidding and
          modifications to construction contracts also require a cost analysis.

          The Commission’s former executive director provided cost reasonableness
          certifications; however, these certifications were performed after the contracts for
          the Recovery Act grants were awarded. Further, the Commission was unable to
          provide supporting documentation for its cost reasonableness certifications. We
          identified solicitation efforts between its contractor, Siemens, and its
          subcontractors for grant activities including the energy-efficient windows,
          domestic hot water heaters, air conditioning sleeves, roof replacement, green roof,
          porch lights, furnaces, and LED (light-emitting diode) lighting. However, the
          quotes that were submitted by the subcontractors did not include a breakdown of
          the specific elements of costs and profits.

          Siemens also did not break down the specific elements of costs and profits for any
          of the individual activities or for any of the grants as a whole. For the air
          conditioning sleeve activity, Siemens did not select the lowest bidder to perform
          the activity at the Richert Manor project, and documentation was not provided to
          support this selection. There were other grant activities for which the
          Commission was unable to provide quotes or other documentation to support their
          cost reasonableness. These activities included the energy management system,
          green assessments, staff training, resident education, and green operations and
          maintenance manual. Therefore, the Commission did not provide a cost analysis
          or an alternative method of determining that the price was reasonable, in
          accordance with HUD's regulations, for its Recovery Act grant-funded activities.

The Commission Revised Its
Grant Activities Before
Receiving Approval From HUD
and Its Board

                                            8
The Commission executed revised grant activities before obtaining approval from
HUD and its board. For instance, the grant application for the Mince Manor
project only included energy-efficient window replacement as a grant activity.
However, the contractual agreement that the Commission executed with its
contractor, Siemens, dated February 23, 2010, identified additional grant
activities, including window blinds, an energy management system, a green
assessment, a green operations and maintenance manual, staff training, and
resident education. Further, the final invoiced amounts submitted by Siemens
indicated additional activities that were included in neither the grant application
nor the contractual agreement. These activities included the installation of a
domestic hot water heater and exterior LED lighting, which were also funded by
the Mince Manor Recovery Act competitive grant. Siemens further indicated that
the hallway lights were substituted for the energy management system as a grant-
funded activity. However, neither the grant application, contractual agreement,
final invoice, nor other documentation supported this statement.

For the Mince Manor grant, the Commission obtained board approval for the
domestic hot water heater and exterior lighting revised activities but not for all of
the revised activities funded by the grant. The domestic hot water heater activity
was approved by the board on June 10, 2010, nearly 1 month after the hot water
heater was installed at the Mince Manor project on May 20, 2010.

Further, the Commission failed to obtain HUD approval before executing any of
the additional grant activities that were performed, contrary to section VI of
Public and Indian Housing Notice PIH 2010-34, which states that “a grantee’s
ability to revise the plan outlined in its application is limited. Grantees may not
use the funds on more than one development or use any excess funds on activities
other than those specified in the grant application. No modification to the grant
program outlined in the grantee’s application in any significant way is permissible
without the consultation and approval of HUD. Public housing agencies must use
the Recovery Act competitive grant funds on Capital Fund eligible activities
currently identified in their grant application.” The Detroit HUD office indicated
that it later approved the Commission’s revised grant activities. However, the
Commission failed to request or obtain approval from HUD headquarters as
required. The Commisssion’s failure to obtain HUD’s approval for revisions to
the activities that occurred in all four Recovery Act competitive grants is outlined
in the table below.




                                  9
                                         Richert     Howard                     Mince
               Grant-funded activity     Manor       Estates     Centerview    Manor
           Window blinds                 $43,792     $55,796      $26,971      $10,908
           Domestic hot water heater      88,742         -         70,282       45,765
           Air conditioning sleeves       50,742         -            -            -
           LED lighting                      -           -            -        122,481
           Porch lights                      -        14,283          -            -
           Furnace replacement               -       186,265          -            -
           Energy management system          -           -         45,922       83,796
           Green assessment, green
           maintenance and operations
           manual, staff training, and
           resident education             22,958      22,958       22,961       22,958
           Total unsupported amounts     $206,234    $279,302     $166,136     $285,908


Contract Payments Were Not
Issued in Accordance With
HUD’s Requirements

           The Commission made progress payments to its contractor, Siemens, for all four
           of its Recovery Act competitive grants. However, it failed to ensure that these
           payments were made in accordance with HUD’s requirements. Section 11.2 of
           HUD’s handbook states that all progress inspections should be documented using
           an appropriate public housing agency inspection report form. The inspection
           report should include a description of the work completed and a determination as
           to whether the work is acceptable. If progress payments are necessary, the public
           housing agency must require the contractor to prepare a construction progress
           schedule for each project. The public housing agency is responsible for making
           progress payments to the contractor based on the approved schedule of amounts
           for contract payments. The public housing agency should review each contractor
           request and should approve the payment if the following conditions have been
           met (if the contractor requests payment for items that have not been acceptably
           completed, the public housing agency should delete those items and adjust the
           payment accordingly): the contractor’s request is consistent with the approved
           schedule of amounts for contract payments and the work covered by the payment
           has been performed in accordance with the construction documents. Form HUD-
           51000, Schedule of Amounts for Contract Payments, further states that “no
           progress payments should be made to the contractor unless a schedule of amounts
           for contract payments in accordance with the construction contract is received.”

           We identified the following discrepancies with the Commission’s contract
           payments to Siemens:

           1. The Commission’s inspection reports noted how many employees were
              working and whether work was occuring, but they did not indicate whether
              the work was acceptable.

                                           10
2. The contractor’s requests and the Commission’s payments were not in
   accordance with the construction contracts. Each contract included a payment
   schedule in exhibit B, which estimated payments of 10 percent at contract
   execution, 10 percent at final completion, and between 10 and 20 percent
   during the course of the contract. This exhibit indicated that actual progress
   payments would be made pursuant to and against an agreed schedule of
   values. However, the schedule of values that was provided by the
   Commission failed to indicate dates, amounts, or percentages that outlined
   how the contractor would be paid. Instead, the schedules of values that were
   provided specifically stated “invoice” and corresponded to the invoices that
   were issued by the contractor for payment.

3. The work covered by the payments was not always completed in accordance
   with the construction documents. As of December 2010, Siemens had
   submitted invoices for the entire costs associated with the energy management
   system activity that was performed for both the Mince Manor and Centerview
   projects. According to the contracts, this activity involved installing new
   thermostats in both the residential units and local or common areas,
   connecting the roof top makeup air unit to the new energy management
   system, and installing the actual monitoring system. Total costs associated
   with the energy management system, based upon the final invoices submitted
   by Siemens, were $129,718. During walkthrough observations performed
   during April 10-11, 2012, we concluded that none of the residential units or
   common areas in the Mince Manor project received new thermostats, not all
   of the residential units and none of the common areas in the Centerview
   project received new thermostats, and neither project had the makeup air unit
   installed or connected to the energy management system. The Commission
   failed to deduct the costs of the activities that were not acceptably completed
   from the contract payments for the Mince Manor and Centerview projects.

4. The Commission did not ensure that its grant expenses were charged to the
   appropriate accounts. All grant expenses were charged to account 1460,
   dwelling structures. However, HUD’s Guidebook 7510.1 indicates the
   following:

       a. Energy-efficient windows in common areas totaling $128,609 should
          be charged to account 1470, nondwelling structures.
       b. The window blinds activity totaling $137,462 should be charged to
          account 1465, dwelling equipment.
       c. The exterior LED lights activity totaling $122,481 should be charged
          to account 1450, site improvement.
       d. The green assessments, green operations and maintenance manual,
          staff training, and resident education activities totaling $91,834 should
          be charged to account 1408, management improvement.
       e. The installation of the energy management system (not including the
          new thermostats) should be charged to account 1475, nondwelling
                                11
                      equipment. The Commission did not provide a breakdown of costs
                      associated with this activity to determine the misclassified amount.

           The Commission charged a total of $480,391 in grant expenses to the incorrect
           account.

The Commission’s Section 3
Compliance Was Unsupported

           The contractual agreements between the Commission and its contractor, Siemens,
           included Section 3 clauses. However, the Commission did not maintain
           documentation showing that its contractor included Section 3 clauses in the
           contracts with the subcontractors or that its contractor and subcontractors
           followed Section 3 requirements in accordance with the requirements at 24 CFR
           135.38. Due to the lack of documentation, we were unable to determine whether
           the Commission used the required 10 percent of Recovery Act funds for Section
           3-eligible businesses. However, the Commission submitted Section 3 summary
           data on Form HUD-60002 to HUD in accordance with the reporting requirements
           found at 24 CFR 135.90.

The Commission Generally
Complied With Davis-Bacon
Act Requirements

           The Commission generally complied with the requirements of the Davis-Bacon
           Act for all four of its Recovery Act competitive grants. However, it failed to
           maintain the required payroll forms for the engineer assistant work performed by
           one Section 3 subcontracted employee for all four grants. In addition, two
           subcontracted employees were not paid the proper Davis-Bacon wage rates. One
           subcontractor employee who provided roofer services at the Centerview project
           was underpaid $11. Another subcontractor employee who provided electrician
           servcies at the Mince Manor project was underpaid $262.

The Commission Misapplied
HUD’s Requirements

           The Commission failed to comply with HUD’s requirements and its own
           procurement policy during the procurement process because it lacked an adequate
           contract administration system to ensure that contracts were awarded and
           managed in accordance with HUD’s requirements and its own procurement
           policy. The method of procurement had deficiencies because the former
           executive director, who acknowledged that he was the Commission’s contracting
           officer and did not delegate these powers during the course of the grants, said that

                                            12
since the grants were associated with the Commission’s energy performance
contract, he thought he was allowed to sole source the grant activities.

Further in his explanation regarding why the Commission used the
noncompetitive method of procurement, the former executive director stated that
the sealed bids method of procurement was rejected because the Commission had
only one person overseeing the expenditures of the Capital Fund program and the
Recovery Act formula grant. Therefore, resources were fully exhausted, limiting
the procurement process.

Neither HUD’s regulations nor the Commission’s procurement policy supported
limited staff as being a sufficient reason to bypass a certain method of
procurement. Instead, this statement indicates that the Commission did not have
the capacity to administer the Recovery Act competitive grants. The staff
member responsible for overseeing the Commission’s expenditures for the Capital
Fund program and the Recovery Act formula grant said that she was not involved
with the procurement of the competitive grants because she did not agree with the
timing exception. However, she was involved in the contract management aspect
of the competitive grants, as directed by the former executive director, including
inspections and reporting.

The former executive director further stated that the competitive proposals
method of procurement was rejected because there was a clear relationship
between the Recovery Act grants and the proposed energy performance contract
from the perspective of energy reduction targets, leverage, and the green
assessment. The former executive director stated two reasons why this
relationship made bringing in a second party risky. “First, there was significant
risk associated with hiring a second “design build firm” that was responsible for
reducing energy consumption. The Commission would then have two parties
responsible for meeting the target of energy reduction. If the target reduction was
not met, HUD might ask for funding to be returned. This risk would be reduced
by having one firm do both. Second, leverage is directly related to the firm
assisting with financing the proposed energy performance contract. Compliance
with leverage is critical, and having a separate firm install the Recovery Act-
funded and leveraged work would increase the risk of leverage falling through.”

Based upon HUD’s regulations at 24 CFR 85.36, HUD’s handbook, and the
Commission’s own procurement policy, the hiring of a “design build firm” was
not a requirement under the competitive proposals method of procurement.
Instead, this method required that (1) requests for proposal be publicized and
identify all evaluation factors and their relative importance, (2) proposals are
solicited amongst an adequate number of qualified sources, (3) the Commission
used a method to technically evaluate the proposals received and select the
awardees, and (4) the contract is awarded to the responsible firm with the
proposal that is most advantageous to the program, with price and other factors
considered. The method in which price is not used as a selection factor can be
                                13
used only in the procurement of architectural and engineering professional
services. Further, in the grant applications, the Commission had already indicated
which activities it wanted to perform using the grant funds (that is, energy-
efficient windows, a roof replacement, and a green roof). Therefore, the
Commission was not required to hire another “design build firm” to implement a
scope that reduces energy consumption because the Commission had already
identified which activities it wanted to pursue and had obtained the assistance of
its energy performance contractor, Siemens. The former executive director said,
as confirmed by the memorandum of agreement, dated July 10, 2009, that when
HUD’s Notice of Funding Availability, dated June 3, 2009, came out, he
consulted with Siemens to determine whether the Commission would be eligible
for any of the categories, and Siemens provided assistance to apply for category 4,
option 2.

In his explanation, the former executive director stated that the noncompetitive
method of procurement was selected because the Commission assessed the
different procurement options and the noncompetitive method of procurement
was the only available option by which the Commission could obligate the
Recovery Act competitive grants within the required time constraints of HUD’s
Notice of Funding Availability, dated June 3, 2009. The notice on page 117
stated that “public housing agencies should give priority to the Capital fund
Stimulus (including competitive) Grant projects that can award contracts based on
bids within 120 days from February 17, 2009.” Further, the Commission had
previously issued a request for proposal for an energy performance contract
complying fully with HUD requirements for “full and open” competition, and an
energy performance contract was awarded to Siemens based upon the request
complying fully with HUD procurement requirements.

Based upon the reference made by the former executive director, 120 days from
February 17, 2009, would have been June 17, 2009. Since the deadline for
applying for the grants was July 21, 2009, it was apparent that this was a
misstatement in HUD’s Notice of Funding Availability, dated June 3, 2009.
Section VI.B.1.d of the notice further stated that “HUD must obligate the
Recovery Act competitive grant funding to grantees by September 30, 2009.
Public housing agencies must obligate 100 percent of the grant funds awarded
under this notice within 1 year of the date on which funds become available to the
public housing agency for obligation (which is the effective date of the annual
contributions contract amendment). If a public housing agency fails to comply
with the 1-year obligation requirement, HUD will recapture all remaining
unobligated funds awarded.”

It was apparent that the Commission understood the true meaning of the
requirements of HUD’s notice because it indicated in the program schedule of its
grant application submissions that it would “obligate the grant funds no later than
12 months from the date on which the funds became available,” not 120 days
from February 17, 2009. And although the Commission signed a memorandum of
                                14
agreement with Siemens on July 10, 2009, the contracts for the grants were not
executed until February and March 2010, which was more than 120 days from
September 24, 2009, the date on which HUD executed the annual contributions
contract amendments with the Commission.

The reference cited by the former executive director also stated that public
housing agencies should give priority to Recovery Act projects that can award
contracts based on bids. Section VI.B.3 of the HUD notice further stated that
“public housing agencies shall instead follow the Part 85 requirements. Part 85
Compliance: Public housing agencies shall amend their procurement standards
and policies as necessary in order to expedite and facilitate the use of the funds.
This amended policy can be used only for procurements related to Capital Fund
stimulus (including competitive) grants. This must be done in writing and
consistent with public housing agency policies and procedures (such as Board
approval) and labeled as Capital Fund stimulus (including competitive) grant
procurement policy. Specifically, public housing agencies must remove all
procurement standards that are contrary to Part 85 or the Recovery Act. Where
permitted by Part 85, public housing agencies may insert their own procedures
provided that they are not contrary to the purposes of the Recovery Act. For
example, a public housing agency may use their existing protest procedures,
written codes of standards for employees engaged in the award and administration
of the contracts and other procedures as long as they are not contrary to Part 85.
It is important to note that public housing agencies shall continue to follow all
Part 85 requirements regarding conflicts of interest, contract cost and price.”

Although priority was to be given to contracts that could be awarded within 120
days, HUD’s notice required the Commission to follow the requirements of 24
CFR Part 85. The Commission failed to award its contracts based on bids and
failed to provide sufficient documentation showing that it complied with the
requirements of 24 CFR Part 85 and its amended procurement policy.

Further, since the grant activities were not included in an approved annual plan, 5-
year action plan, or the original energy performance contract, Notice PIH 2009-25
stated that the Commission had to “first determine pursuant to 24 CFR
85.36(d)(4) whether a contract for the additional item was infeasible under small
purchase procedures, sealed bids or competitive proposals. Then, if infeasible
under these competitive methods, the public housing agency must determine
whether this additional item is available only from a single source or is there a
public ‘exigency’ or emergency for this work which will not permit a delay
resulting from competitive solicitation. These determinations must be recorded in
the public housing agency’s procurement files.” Based upon the activities
indicated in the Commission’s grant applications, we concluded that it would
have been feasible for the Commission to use a competitive method of
procurement as required by HUD regulations and its own procurement policy.



                                 15
             The Commission failed to prepare an independent cost estimate and perform a
             cost analysis because the former executive director indicated that he was not
             familiar with this requirement. As previously mentioned, he provided cost
             reasonableness certifications but was unable to provide supporting documentation
             for these certifications.

             The Commission did not obtain HUD’s approval of all of the grant activities
             included in its grant applications or its revised grant activities because the former
             executive director thought that the Commission’s 2010 annual plan was
             automatically approved by HUD after 120 days. However, since the Commission
             was designated as a troubled agency during this period, it required written
             approval from HUD of its annual plan and 5-year action plan and any significant
             revisions to its grant activities. The former executive director thought approval
             from the board of commissioners was sufficient to revise the Commission’s grant
             activities.

             The Commission did not issue its contract payments in accordance with HUD’s
             requirements because it lacked an understanding of HUD’s requirements and
             adequate procedures and controls over its grant disbursements to ensure that work
             was complete and approval was obtained before payments were made. Its
             contractor, Siemens, further stated that due to resident concerns raised at the
             Centerview Apartments, the Commission chose to hold off on the installation of
             thermostats, under the energy management system activity, at Mince Manor. He
             further stated that in lieu of replacing the thermostats, the Commission upgraded
             the hallway lighting fixtures at Mince Manor to address its public housing Real
             Estate Assessment Center inspection concerns. Documentation provided by the
             Commission included correspondence with Siemens concerning this revision, but
             we did not obtain documentation showing that the Commission requested or
             obtained approval from HUD or its board of commissioners for this revision to its
             grant activities. Further, during the walkthrough observations performed in April
             2012, the Commission’s modernization inspector said that the hallway lights were
             in the process of being installed. Therefore, this revised grant activity had not
             been completed nearly 1 year after Siemens received its final contract payment for
             the Mince Manor project in June 2011, and the final invoice from Siemens did not
             include the hallway lights as an activity.

Conclusion

             As a result of the conditions described above, the Commission limited full and
             open competition for the activities funded by its four Recovery Act competitive
             grants when it failed to comply with HUD’s requirements and its own policies.
             Revised grant-funded activities totaling $937,580 were not approved by HUD,
             and the Commission charged $480,391 in grant expenses to incorrect accounts.
             As a result of the weaknesses in its procedures and controls, the Commission
             expended more than $3.1 million in ineligible contracted funds for its competitive
             grant activities, and HUD and the Commission lacked assurance that the
                                              16
          Commission’s accounts accurately represented contract expenses and that work
          was complete and disbursements were approved before payments were made.

Recommendations

          We recommend that the Director of HUD’s Detroit Office of Public Housing
          require the Commission to

         1A.      Reimburse HUD $3,120,000 from non-Federal funds for transmission to
                  the U.S. Treasury for its four Recovery Act grant funds for category 4,
                  option 2 of HUD’s Notice of Funding Availability, dated June 3, 2009,
                  whose activities were not contracted using full and open competition.

         1B.      Review the Section 3 subcontractor identified in this finding to determine
                  whether wage restitution is owed and provide the results to HUD for
                  review and approval. If wage restitution is required, the Commission
                  should make the restitution from non-Federal funds.

         1C.      Update its policies for the classification of expenses to ensure that they
                  agree with HUD’s requirements and ensure that its staff is properly trained
                  and familiar with the classification requirements.

         1D.      Implement an adequate contract administration system to ensure that
                  contracts are awarded in accordance with HUD’s requirements and the
                  Commission’s procurement policy.




                                           17
                        SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed

   •   Applicable laws; regulations; Federal Register notices; HUD’s program requirements at
       24 CFR Parts 85, 135, 902, 903, 905, 941, 965, and 968; 29 CFR Parts 5 and 541; HUD
       public and Indian housing notices; HUD Handbook 7460.8, REV-2; HUD Guidebook
       7510.1; the United States Housing Act of 1937 as amended; OMB requirements at 2 CFR
       Part 225; OMB Circular A-133; and OMB Memorandums M-09-10, M-09-15, M-09-21,
       M-10-08, and M-10-34.

   •   The Commission’s accounting records; annual audited financial statements for fiscal
       years 2008, 2009, and 2010; bank statements; general ledgers; contract and procurement
       files; policies and procedures; board meeting minutes for March 2009 through September
       2011; organizational charts; program annual contributions contract with HUD; and Line
       of Credit Control System information and request for payment.

   •   HUD’s files for the Commission.

We also interviewed the Commission’s employees, the Commission’s contractor employee, and
HUD staff.

Finding

We reviewed 100 percent of the contract administration process for the four Recovery Act
competitive grants to determine whether these grants were appropriately administered by the
Commission in accordance with HUD’s and the Commission’s requirements during the period
March 18, 2009, through September 30, 2011. We determined that the Commission did not
maintain all of the required documentation. We also contacted the Commission’s contractor to
determine whether it maintained additional documentation pertinent to the Commission’s
Recovery Act competitive grant projects.

We reviewed the Commission’s subcontractor payroll records to determine whether the
Commission maintained documentation to support that it ensured that its subcontractors paid the
appropriate prevailing wages.

Using data mining software, we statistically selected 59 of the Commission’s units or common
areas to observe the following activities:

   •   Window replacement,
   •   Window blinds,
   •   Furnace replacement,
   •   Air conditioning sleeves,
   •   Energy management system, and
                                              18
   •   Porch lights.

In addition, we reviewed 100 percent of these additional grant-funded activities:

   •   Roof replacement,
   •   Green roof,
   •   Domestic hot water heaters,
   •   LED lights,
   •   Green assessments performed for the Richert Manor, Howard Estates, Centerview, and
       Mince Manor projects.
   •   Green operations and maintenance manuals for the Richert Manor, Howard Estates,
       Centerview, and Mince Manor projects.
   •   Staff training for the Richert Manor, Howard Estates, Centerview, and Mince Manor
       projects.
   •   Resident education for the Richert Manor, Howard Estates, Centerview, and Mince
       Manor projects.

We performed our onsite audit work between November 2011 and May 2012 at the
Commission’s office located at 3820 Richfield Road, Flint, MI. The audit covered the period
March 18, 2009, through September 30, 2011, but was expanded when necessary to include other
periods.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective(s). We believe that the evidence obtained provides a reasonable basis for our finding
and conclusion based on our audit objective.




                                               19
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

               •      Effectiveness and efficiency of operations – Policies and procedures that the
                      audited entity has implemented to provide reasonable assurance that a
                      program meets its objectives, while considering cost effectiveness and
                      efficiency.

               •      Reliability of financial reporting – Policies and procedures that management
                      has implemented to provide reasonable assurance regarding the reliability of
                      financial reporting and the preparation of financial statements in accordance
                      with generally accepted accounting principles.

               •      Compliance with applicable laws and regulations – Policies and procedures
                      that management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

                                                 20
Significant Deficiency

            Based on our review, we believe that the following item is a significant deficiency:

            •      The Commission lacked adequate procedures and controls to ensure
                   compliance with HUD’s and its own procurement requirements for its
                   Recovery Act competitive grants. There were deficiencies with its method
                   of procurement, cost reasonableness methods, grant activities performed,
                   contract payments, and Section 3 compliance (see finding).




                                             21
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE
                            Recommendation
                                                  Ineligible1/
                                number
                                  1A                $3,120,000
                                 Totals             $3,120,000


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.




                                            22
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation                                                       Auditee Comments


                                                           FLINT HOUSING COMMISSION

                                             Equal
                                            H   i
                 Terrence Clark, Executive Director                                      Board of Commissioners:
                 3820 Richfield Road                                                    President Jessie McIntosh
                 Flint, Michigan 48506                                                  Vice President Geraldine Redmond, Resident Commissioner
                 Phone: (810) 736-3050                                                  Commissioner Diana Kelly
                 Fax: (810) 736-0158                                                    Commissioner David Solis’
                                                                                        Commissioner Willie Duncan


              MI 9-1
              Richert Manor (Elderly)
              902 E. Court St. 48503
              (810) 736-3094

              MI 9-2
              Howard Estates (Family)                August 30, 2012
              801 Flora Park 48503
              (810) 736-3170
              MI 9-3
              Atherton East (Family)
              3123 Chambers 48507                    Mr. Anthony Smith
              (810) 736-3159

              MI 9-4
              Garland Apartments (Elderly)
              820 & 906 Garland St. 48503
                                                     Assistant Regional Inspector General for Audit
              MI 9-5
              River Park Apartments
              (Family)
                                                     477 Michigan Ave., Room 1780
              7002 Pemberton Dr. 48505
              (810) 736-3088

              MI 9-6
                                                     Detroit, MI 48226-2592
              Centerview Apartments
              (Elderly)
              2001 N. Center Rd. 48506
              (810) 736-3102
                                                     RE: American Recovery and Reinvestment Act (ARRA) Capitol Fund Competitive Grant
              MI 9-7
              Forest Park (Elderly)                  Response
              4060 M.L King Ave. 48505

              MI 9-10                                        This is the Flint Housing Commissions Response to the Office of Inspector General’s
              Scattered Sites (Family)
                                                     Discussion Draft of the American Recovery and Reinvestment Act (ARRA) Capital Fund
              MI 9-11
              Mince Manor (Elderly)
                                                     Competitive Grant.
              3800 Richfield Rd. 48506
              (810)736-3193
                                                     The main finding against the Flint Housing Commission was based upon HUD and FHC
Comment 1     MI 9-14
              Aldridge Place (Family)
                                                     procurement requirements. The Administration of the FHC that was in place, at the time the
              5838 Edgar Holt Drive 48505            Competitive grants were awarded, believed wholeheartedly that the non-competitive
              (810) 736-3148
                                                     procurement method was the correct way to go at the time. The past Administration believed
              MI 9-15
              Kenneth M. Simmons Square              that since the FHC used full and open competition to choose a firm for our energy performance
              (Elderly)                              contract, that we could use the same firm to handle the Competitive grants, since the work being
              2102 Stedron 48504
              (810) 736-3154                         completed through the Competitive grants was part of the work in the EPC.
              Housing Choice Voucher
              Program                                The current Administration is of the opinion that the projects in the ARRA Competitive Capital
Comment 2     Section 8
              (810) 736-3050                         Fund Grants were energy saving work items, and were listed in our amended Annual and 5 Year
Comment 1                                            PHA Plan along with the proposed EPC that was still in the process of being approved at that
                                                     time.




                                                                                23
Ref to OIG Evaluation                        Auditee Comments

Comment 3               Since then, our EPC has been approved and the projects have been completed with the ARRA
                        Competitive Funds. The Improvement Projects that were listed in the initial contracts are as
                        follows:

                                  Mince Manor: Energy Efficient Windows, CFL Wall Fixtures
                                  Centerview Apartments: New Roof and Green Roof, Energy Efficient Windows
                                  Howard Estates: Energy Efficient Windows
                                  Richert Manor: New Hot Water Heater, Energy Efficient Windows, AC Sleeves
                        The above Projects were completed below their initial budget figures. The past Administration
Comment 4               decided to add additional projects with the excess funds. They felt they would maximize the
                        opportunity to get more projects completed with the same amount of funding. The added
                        projects are as follows:

                                     Mince Manor: Installed New Hot Water Boiler and Storage Tank, LED Parking
                                      Lot Lighting
                                     Centerview Apartments: New Digital Thermostats
                                     Howard Estates: Furnace Replacements, Outside Energy Efficient Lighting

                        We have detailed contracts, invoices and receipts showing that the funds from the grants were
Comment 5               used to improve our complexes for our residents and make our complexes more energy efficient
                        and the FHC was able to do more work with the grants than originally planned. These projects
                        were “shovel ready” as indicated in our Annual and 5 Year Plans. The past Administration’s
                        opinion was to use this ARRA Competitive Capital Grant funds to help with the cost of the EPC.
                        This would have reduced the amount of funding to be leveraged for the EPC. The current
                        Administration believes the report should reflect that the funds were spent for the residents to
                        improve their living conditions and improve the energy performance of our complexes. All work
                        is available to see and the work was completed using Davis-Bacon wages.
                        The Flint Housing Commission also believes that the firm that was hired to do the work was fully
Comment 6               vested in hiring Section 3 workers in all areas of the work, and a Section 3 “hours area” was in
                        the bid packages sent to their sub-contractors. The FHC also included HUD Form 5370 in the
                        “Articles and Attachments” to the contract, where it states that the contract is subject to Section 3
                        of the Housing and Urban Development Act of 1968. The contractor also hired a Section 3 sub-
                        contractor as stated in the findings.

                        As for the Davis- Bacon errors, the Flint Housing Commission has always ensured the
                        contractors and sub-contractors are paying the correct Davis-Bacon wages, but there is always
                        the chance a wage could slip through and be wrong, this is human error. The Flint Housing
                        Commission would definitely correct any wages that are wrong and make restitution to that
                        employee. No wages were kept and no employee was under or overpaid on purpose. All staff
                        that does handle Capital Fund Grants has been trained with HUD personnel regarding Davis-
                        Bacon wages and is in constant communications with Detroit Department of Labor with any
                        questions.


Comment 7               The Flint Housing Commission has an adequate administration system in place, and has had one
                        for many years, as seen in the formula ARRA grant (Stimulus grant). The past administration




                                                 24
Ref to OIG Evaluation                        Auditee Comments

                        (Director) decision to handle the four (4) Competitive contracts was made without conferring
                        with the Capital Fund Administrator (Modernization Director).

                        The current Administration of the Flint Housing Commission is committed to properly handling
Comment 8               any and all grants and monies allowed the FHC with the help of the Detroit HUD personnel.
                        The Flint Housing Commission does not agree with paying back the entirety of the four (4)
                        Competitive grants, noting that the work was completed in all four grants, and the funds
                        expended only after correctly requisitioning it from the HUD Detroit office. Meetings were
                        held with residents and employees to train them in different aspects of energy savings, an
                        assessment was made by a 3rd party of the four complexes that received the grants, and the FHC
                        received Green Operation and Maintenance manuals along with training from Siemens and the
                        sub-contractor. All aspects of all four (4) Competitive grants were completed along with extra
                        work not originally planned. This should account for all of the grant amounts given to the FHC
                        for these purposes.

                        We hope all the items above will be taken into consideration before a final ruling is put in place
Comment 9               by the Office of Inspector General and/or the Detroit HUD field office.

                        Thank you,




                        Terrence Clark
                        Executive Director




                                                 25
                         OIG Evaluation of Auditee Comments


Comment 1   We do not disagree with the Commission's use of the same firm to handle the
            competitive grants. However as indicated in the audit report, the Commission’s
            process to award the contracts for its competitive grants had deficiencies. The
            Commission's original energy performance contract that was provided on
            Tuesday, September 4, 2012, was not a complete document but rather an undated,
            unsigned table that did not make reference to the energy performance contract
            other than the title of the document. In contrast, the Commission provided the
            audit team with its energy performance contract documentation, including the
            request for proposals, the bid submittals, the evaluation of bids, and the contract
            in November 2011. On November 30, 2011, the former executive director
            confirmed that the unsigned and undated contract that was provided was the final
            contract. He indicated that the contract was neither signed nor dated because the
            financing portion of the energy performance contract had yet to be finalized. We
            used the energy performance contract provided in November 2011 to determine
            that the majority of activities performed for the Recovery Act competitive grants
            were not included in the original energy performance contract.

            Furthermore, the 2010 Public Housing agency plan that was provided on Tuesday,
            September 4, 2012, did not include a HUD-approved annual or 5-year plan that
            included the Commission's Recovery Act competitive grant activities. HUD's
            Web Site also did not indicate an approved plan for fiscal year 2010 for the
            Commission, as of September 5, 2012, although the website did indicate that
            HUD received four versions of the Commission's fiscal year 2010 plan.

            Therefore, as indicated by HUD's Public and Indian Housing Notice 2009-25,
            since the Commission was adding energy infrastructure improvement activities
            that were not included in an approved annual plan, 5-year action plan, or the
            original energy performance contract, the Commission had to first determine
            pursuant to 24 CFR 85.36(d)(4) whether a contract for the additional item was
            infeasible under small purchase procedures, sealed bids or competitive proposals.
            Then, if infeasible under these competitive methods, the public housing agency
            must determine whether this additional item is available only from a single source
            or is there a public “exigency” or emergency for this work which will not permit a
            delay resulting from competitive solicitation. These determinations must be
            recorded in the public housing agency’s procurement files. Since the contracts
            were not awarded in accordance with HUD’s requirements and its own
            procurement policy, we concluded that the Commission did not have valid
            obligations for its Recovery Act four competitive grants.

Comment 2   Although we do not disagree that the activities that were funded by the Recovery
            Act competitive capital fund grants were energy saving activities, we were not
            provided sufficient documentation that indicated that these activities were
            included in a HUD-approved annual plan or 5-year plan. HUD approval was
                                            26
            required since the Commission was a troubled public housing agency during its
            administration of the Recovery Act competitive grants. In addition as Comment 1
            indicates, the majority of these activities were not included in the Commission's
            original energy performance contract that was provided to the audit team in
            November 2011. Therefore HUD's Public and Indian Housing Notice 2009-25
            required that the Commission first determine pursuant to 24 CFR 85.36(d)(4)
            whether a contract for the additional items were infeasible under small purchase
            procedures, sealed bids or competitive proposals. The Commission did not
            perform a competitive method of procurement for these activities. For those
            activities that were included in the energy performance contract (that is, the
            domestic hot water heaters for the Richert Manor and Centerview projects), these
            were revised grant activities that were not approved by HUD, as discussed in the
            audit report.

Comment 3   Although the majority of the activities listed by the Commission may have been
            included on the initial contracts between the Commission and its contractor
            Siemens, these activities were not included in a HUD-approved annual or 5-year
            plan or in the Commission’s original energy performance cotntract, as discussed
            in Comment 1. In addition, all of these activities were not included on the
            Commission’s Recovery Act competitive grant applications.
            • For the Mince Manor project, the energy efficient windows were neither
                included in a HUD-approved annual plan or 5-year plan, and they were not
                included in the original energy performance contract. HUD approval was
                required since the Commission was a troubled public housing agency during
                its administration of the Recovery Act competitive grants. Although lighting
                retrofits were included in the original energy performance contract, this was a
                revised grant activity that the Commission did not request nor receive
                approval from HUD in accordance with Sections VI and IX of HUD Public
                and Indian Housing Notice 2010-34.
            • For the Centerview Apartments project, neither the roof replacement, green
                roof, nor energy efficient windows were included in a HUD-approved annual
                plan or 5-year plan, and they were not included in the original energy
                performance contract. HUD approval was required since the Commission was
                a troubled public housing agency during its administration of the Recovery
                Act competitive grants.
            • For the Howard Estates project, the energy efficient windows were neither
                included in a HUD-approved annual plan or 5-year plan, and they were not
                included in the original energy performance contract. HUD approval was
                required since the Commission was a troubled public housing agency during
                its administration of the Recovery Act competitive grants.
            • For the Richert Manor project, neither the energy efficient windows nor the
                air conditioning sleeves were included in a HUD-approved annual plan or
            • 5-year plan, and they were not included in the original energy performance
                contract. HUD approval was required since the Commission was a troubled
                public housing agency during its administration of the Recovery Act
                competitive grants. Although the new hot water heater was included in the
                                            27
                original energy performance contract, this was a revised grant activity that the
                Commission did not request nor receive approval from HUD in accordance
                with Sections VI and IX of HUD Public and Indian Housing Notice 2010-34.

Comment 4   The Commission failed to adhere to HUD's requirements regarding the revision of
            its grant activities. Section VI.B.2.f.4.b.i of HUD's Notice of Funding
            Availability, dated June 3, 2009, stated that "failure to comply with the
            performance measure will subject the grant to sanctions including recapture of
            grant funds proportional to the shortfall in scope of committed activities." In
            addition, Section VI of Public and Indian Housing Notice 2010-34 states that "a
            grantee’s ability to revise the plan outlined in its application is limited.....grantees
            cannot change project locations (e.g. switch sites) for the proposed capital fund
            recovery competition grant activities. Grantees may not use the funds on more
            than one development or use any excess funds on activities other than those
            specified in the grant application. There are other limitations as well. No
            modification to the grant program outlined in the grantee's application in any
            significant way is permissible without the consultation and approval of HUD.
            Grantees should consult the local HUD field office as soon as possible if it
            anticipates the need to modify its grant program. Eligible Uses of Funds: Public
            housing agencies must use these funds on Capital Fund eligible activities
            currently identified in their grant application." Section IX of Public and Indian
            Housing Notice 2010-34 further states that capital fund recovery competition
            revisions are not permitted without HUD approval. If a public housing agency
            anticipates a need to modify the grant program outlined in their application in any
            significant way, it must submit a written request. For non- mixed finance grants,
            requests are submitted to the local HUD field office. (These requests will be
            forwarded to the Office of Field Operations for processing.) For mixed finance
            grants, requests are submitted to the assigned grant manager. In all cases, a copy
            of the written request should be submitted to the Director of HUD’s Office of
            Capital Improvements. All requests will be considered on a case-by-case and the
            PHA notified of HUD’s determination. Furthermore, section 28 of exhibit D of
            the contractual agreement between the Commission and Siemens stated that
            "when a proposed modification requires the approval of HUD prior to its issuance
            (e.g., a change order that exceeds the public housing agency’s approved
            threshold), such modification shall not be effective until the required approval is
            received by the public housing agency."

Comment 5   We do not disagree that the Recovery Act competitive grant funds were used to
            improve the Commission's complexes for its residents. Rather, the audit report
            addresses deficiencies in the Commission's procurement procedures that were
            used to administer its Recovery Act competitive grants. We have reviewed the
            contracts, invoices, and receipts that were provided and we performed
            verifications of the grant activities, and we still conclude that the Commission
            failed to follow HUD's and its own procurement requirements for its Recovery
            Act competitive grants, as discussed in the report.

                                              28
Comment 6   As indicated in the audit report, we acknowledged that the contracts between the
            Commission and its contractor Siemens included the required Section 3 clauses.
            However, the contracts between its contractor Siemens and its subcontractors did
            not include the Section 3 clause specified at 24 CFR 135.38. Furthermore, while
            the subcontracts did specify Section 3 participation hours, the Commission did not
            provide sufficient documentation that the section 3 participation hours were met
            by all of its subcontractors in accordance with the contracts. Due to the lack of
            documentation, we were unable to determine whether the Commission used the
            required 10 percent of Recovery Act funds for Section 3-eligible businesses, as
            indicated in the report.

Comment 7   We can neither agree nor disagree that the Commission's contract administration
            system was adequate for its Recovery Act formula grant since we have not
            reviewed this grant at this time. However as discussed throughout the audit
            report, there were deficiencies in the Commission's contract administration
            system for its Recovery Act competitive grants, including the execution of revised
            grant activities prior to board and HUD approval, contract payment deficiencies,
            and other deficiencies. The audit team spoke with staff from the current and past
            administrations during the course of the audit to determine the adequacy of the
            Commission's contract administration system.

Comment 8   We commend the Commission's current administration for its commitment to
            properly handle all grants and monies. We did not evaluate the current
            administration’s procurement procedures since the audit scope was limited to the
            period covering the Recovery Act competitive grants. Although the majority of
            activities may have been completed, there were deficiencies in the procurement
            process for all four Recovery Act competitive grants. The inadequate rationale
            for using the noncompetitive method of procurement, failure to prepare an
            independent cost estimate or cost analysis, and failure to obtain HUD and board
            approval for revised grant activities were some of the deficiencies that were
            determined based upon our review. Since free and open competition was
            hindered based upon these procurement deficiencies, the total amount of the four
            Recovery Act competitive grant funds are considered ineligible. Section V.B.3 of
            HUD’s notice states that “HUD reserves the right to make reductions in funding
            for any ineligible items included in an applicant’s proposed budget.” Section
            VI.A.3 of the notice states “HUD will not fund any portion of your application
            that is not eligible for funding under this program, does not meet the requirements
            of this notice, or may be duplicative of other funded programs or activities. Only
            the eligible portion of your application will be funded.”

Comment 9   During the course of the audit and after the submission of the draft finding
            outlines and draft audit report, both the Commission's and HUD's comments have
            been taken into consideration. This final audit report is a result of all such
            correspondence.



                                            29
Appendix C

                 Federal and the Commission’s Requirements

Finding
OMB Memorandums M-09-10 and M-09-15, section 6.1, state that the critical importance of the
Recovery Act and the funds it will make available to stimulate the American economy require
heightened management attention to acquisition planning to mitigate schedule, cost, and
performance risk; obtain maximum practicable competition; provide appropriate agency
oversight at critical decision points; etc. Although the law calls on agencies to commence
expenditures and activities as quickly as possible consistent with prudent management, this
statement, by itself, does not constitute a sufficient justification to support award of a Federal
contract on a noncompetitive basis. Agencies are expected to follow the same laws, principles,
procedures, and practices in awarding noncompetitive contracts with Recovery Act funds as they
do with other funds. Competition is the cornerstone of our acquisition system.

Section V.A.4.c.2.d of HUD’s Notice of Funding Availability, dated June 3, 2009, states that
“grant recipients must comply with section 3 of the Housing and Urban Development Act of
1968 and its implementing regulations at 24 CFR 135. Specifically, grantees are required to
ensure, to the greatest extent feasible, that training, employment, and other economic
opportunities will be directed to low- and very low-income persons, particularly those who are
recipients of government assistance for housing, and to business concerns that provide economic
opportunities to low- and very low-income persons in that area in which the project is located.”

Section V.B.3 of HUD’s notice states that “HUD reserves the right to make reductions in
funding for any ineligible items included in an applicant’s proposed budget.”

Section VI.A.3 of the notice states “HUD will not fund any portion of your application that is not
eligible for funding under this program, does not meet the requirements of this notice, or may be
duplicative of other funded programs or activities. Only the eligible portion of your application
will be funded.”

Section VI.B.1 of HUD’s notice states that the Recovery Act includes the following information
for public housing agencies: “(a) public housing agencies shall give priority to capital projects
that can award contracts based on bids within 120 days from the date the funds are made
available to the public housing agencies; (b) public housing agencies shall prioritize capital
projects that are already underway or included in the 5-year capital fund plans required by the
Act (42 U.S.C. 1437c-1(a)).”

Section VI.B.2.f.4.b.i of the notice states that the recipient public housing authority must obtain
prior HUD approval to deviate from its application in a significant way. Failure to comply with
the performance measure will subject the grant to sanctions including recapture of grant funds
proportional to the shortfall in scope of committed activities.

                                                 30
Section VI.B.3.a of the notice states that “(4) public housing agencies may use HUD Handbook
7460.8, revision-2 for guidance. (5) Noncompetitive Proposals: According to 24 CFR
85.36(d)(4), if solicitation of a proposal is only from one source or if the public housing agency
finds that after solicitation of a number of sources, that competition is inadequate, the public
housing agency may award the contract noncompetitively where small purchase procedures,
sealed bids or competitive proposals are infeasible and one of the circumstances in 85.36(d)(4)(i)
applies. One such circumstance is public exigency that will not permit a delay resulting from
competitive solicitation (85.36(d)(4)(i)(B)). If the public housing agency finds that other
competitive methods of procurement are infeasible, HUD will support the public housing
agency’s use of the public exigency circumstance based on the purpose and requirements of the
Recovery Act.

Section 3 of the Recovery Act provides that these funds must be managed and expended to
achieve the purposes specified, including commencing expenditures and activities as quickly as
possible consistent with prudent management. Further the Recovery Act has imposed
expeditious obligation and expenditure requirements on the Capital Fund Stimulus (including
competitive) Grants and directs HUD to assist public housing agencies as necessary to expedite
and facilitate the use of these grants. Public housing agencies may use the noncompetitive
proposals method but must do so on a contract-by-contract basis and in compliance with all Part
85 requirements including the requirement for a cost analysis and the conflict-of-interest
requirement. The public housing agency must ensure that the noncompetitive proposals process
followed is clearly captured in its amended Capital Fund Stimulus (including competitive) Grant
procurement policy. Further, the public housing agency must maintain records sufficient to
detail the significant history of each contract’s procurement. These records will include but are
not necessarily limited to the following: rationale for the method of procurement, selection of
contract type, contractor selection or rejection, and the basis for the contract price (85.36(b)(9)).
No HUD preaward review is required for noncompetitive proposals as stated in paragraph 8.4(C)
of HUD Handbook 7460.8, REV-2. However, all public housing agencies are reminded that they
must make available, upon HUD’s request, the public housing agency Capital Fund Stimulus
Grant (including competitive) procurement policy and any documents requested related to
procurement activity as stated in 24 CFR 85.36(g).”

Section VI.B.3.j of the notice states that Federal labor standards are applicable to competitive
grants. These labor standards involve the payment of not less than prevailing wage rates and
record-keeping and reporting requirements. Davis-Bacon wage requirements apply to the
activities funded with competitive grant funds. The public housing agency must obtain the
appropriate Davis-Bacon wage decision, which sets forth the minimum wage rates that may be
paid to construction laborers and mechanics. This wage decision and provisions requiring
compliance with Federal labor standards must be included in any bid specifications and
construction contracts. Development work undertaken directly by the public housing agency,
with its own employees, is also subject to Davis-Bacon wage requirements.

HUD’s Recovery Act Capital Fund Formula Grant Frequently Asked Questions #2, dated
October 5, 2009, procurement question 10 confirmed the use of the noncompetitive method of
                                                 31
procurement to obligate and award Recovery Act funds if other methods are infeasible. Question
11 identified the standard for documentation of the public housing agency determination that
procurement by competitive method is not feasible. HUD stated that public housing agencies
must record and document that they have attempted to procure by a competitive method first and
only then, use a noncompetitive proposal method. The only change to previous procedure is the
elimination of HUD preaward review, and this change applies only to Recovery Act funds unless
HUD requests documents related to procurement activity as stated in 24 CFR 85.36(g).

Regulations at 24 CFR 85.36(c)(1) state that “all procurement transactions will be conducted in a
manner providing full and open competition consistent with the standards of 24 CFR 85.36.
Some of the situations considered to be restrictive of competition include but are not limited to
noncompetitive pricing practices between firms or between affiliated companies, noncompetitive
awards to consultants that are on retainer contracts, organizational conflicts of interest, and any
arbitrary action in the procurement process.” Paragraph (3) states that “grantees will have
written selection procedures for procurement transactions. These procedures will ensure that all
solicitations (i) incorporate a clear and accurate description of the technical requirements for the
material, product, or service to be procured. Such description must not, in competitive
procurements, contain features which unduly restrict competition; and (ii) identify all
requirements which the offerors must fulfill and all other factors to be used in evaluating bids or
proposals.”

Regulations at 24 CFR 85.36(d)(2) describe procurement by sealed bids. Bids are publicly
solicited, and a firm-fixed-price contract (lump sum or unit price) is awarded to the responsible
bidder whose bid, conforming with all material terms and conditions of the invitation for bids, is
the lowest in price. The sealed bid method is the preferred method for procuring construction if
the conditions in 24 CFR 85.36(d)(2)(i) apply. For sealed bidding to be feasible, the following
conditions should be present: a complete, adequate, and realistic specification or purchase
description is available; two or more responsible bidders are willing and able to compete
effectively and for the business; and the procurement lends itself to a firm-fixed-price contract
and the selection of the successful bidder can be made principally on the basis of price.

Regulations at 24 CFR 85.36(d)(3) describe procurement by competitive proposals. The
technique of competitive proposals is normally conducted with more than one source submitting
an offer, and either a fixed-price or cost-reimbursement type contract is awarded. It is generally
used when conditions are not appropriate for the use of sealed bids. The method, in which price
is not used as a selection factor, can only be used in the procurement of architectural and
engineering professional services. It cannot be used to purchase other types of services, although
architectural and engineering firms are a potential source to perform the proposed effort.

Regulations at 24 CFR 85.36(d)(4) describe procurement by noncompetitive proposals, which is
“procurement through solicitation of a proposal from only one source or after solicitation of a
number of sources, competition is determined inadequate. Procurement by noncompetitive
proposals may be used only when the award of a contract is infeasible under small purchase
procedures, sealed bids, or competitive proposals and one of the following circumstances
applies: (A) The item is available only from a single source; (B) The public exigency or
emergency for the requirement will not permit a delay resulting from competitive solicitation;
(C) The awarding agency authorizes noncompetitive proposals; or (D) After solicitation of a
                                                32
number of sources, competition is determined inadequate.” Cost analysis, such as verifying the
proposed cost data, the projections of the data, and the evaluation of the specific elements of
costs and profits, is required. Grantees and subgrantees may be required to submit the proposed
procurement to the awarding agency for preaward review in accordance with paragraph (g) of
this section.”

Regulations at 24 CFR 85.36(f) state that grantees and subgrantees must perform a cost or price
analysis in connection with every procurement action including contract modifications. The
method and degree of analysis are dependent on the facts surrounding the particular procurement
situation, but as a starting point, grantees must make independent estimates before receiving bids
or proposals. A cost analysis must be performed when the offeror is required to submit the
elements of his estimated cost; for example, under professional, consulting, and architectural and
engineering services contracts. A cost analysis will be necessary when adequate price
competition is lacking and for sole source procurements, including contract modifications or
change orders, unless price reasonableness can be established on the basis of a catalog or market
price of a commercial product sold in substantial quantities to the general public or based on
prices set by law or regulation. A price analysis will be used in all other instances to determine
the reasonableness of the proposed contract price. Grantees and subgrantees will negotiate profit
as a separate element of the price for each contract in which there is no price competition and in
all cases in which cost analysis is performed. To establish a fair and reasonable profit,
consideration will be given to the complexity of the work to be performed, the risk borne by the
contractor, the contractor’s investment, the amount of subcontracting, the quality of its record of
past performance, and industry profit rates in the surrounding geographical area for similar work.

Regulations at 24 CFR 85.36(g) state that “grantees and subgrantees must, on request, make
available for awarding agency preaward review procurement documents, such as requests for
proposal or invitations for bids, independent cost estimates, etc., when (i) a grantee’s or
subgrantee’s procurement procedures or operation fails to comply with the procurement
standards in this section; or (ii) the procurement is expected to exceed the simplified acquisition
threshold (which was set at $100,000 per 24 CFR 85.36(d)) and is to be awarded without
competition or only one bid or offer is received in response to a solicitation.”

Regulations at 24 CFR 135.3(a)(3)(i) state that the requirements of this part apply to all
contractors and subcontractors performing work in connection with projects and activities funded
by public and Indian housing assistance covered by Section 3, regardless of the amount of the
contract or subcontract.

Regulations at 24 CFR 135.30(c) state that each recipient and contractor and subcontractor may
demonstrate compliance with the requirements of this part by committing to award to Section 3
business concerns (1) at least 10 percent of the total dollar amount of all Section 3-covered
contracts for building trades work for maintenance, repair, modernization, or development of
public or Indian housing or for building trades work arising in connection with housing
rehabilitation, housing construction, and other public construction and (2) at least 3 percent of
the total dollar amount of all other Section 3-covered contracts.



                                                33
Regulations at 24 CFR 135.32(b) state that each recipient has the responsibility to comply with
Section 3 in its own operations and ensure compliance in the operations of its contractors and
subcontractors. This responsibility includes notifying potential contractors for Section 3-covered
projects of the requirements of this part and incorporating the Section 3 clause set forth in 24
CFR 135.38 in all solicitations and contracts.

Regulations at 24 CFR 135.38 state that all Section 3-covered contracts should include the
Section 3 clause. Paragraph (a) states that the work to be performed under this contract is subject
to the requirements of Section 3 of the Housing and Urban Development Act of 1968, as
amended, 12 U.S.C. (United States Code) 1701u (Section 3). The purpose of Section 3 is to
ensure that employment and other economic opportunities generated by HUD assistance or
HUD-assisted projects covered by Section 3 shall, to the greatest extent feasible, be directed to
low- and very low-income persons, particularly persons who are recipients of HUD assistance
for housing. Paragraph (d) states that the contractor agrees to include this Section 3 clause in
every subcontract subject to compliance with regulations in 24 CFR Part 135 and agrees to take
appropriate action, as provided in an applicable provision of the subcontract or in this Section 3
clause, upon a finding that the subcontractor is in violation of the regulations in 24 CFR Part
135. The contractor will not subcontract with any subcontractor when the contractor has notice
or knowledge that the subcontractor has been found in violation of the regulations in 24 CFR
Part 135.

Regulations at 24 CFR 968.112(a) state, “A public housing agency may use financial assistance
received under this part for the following eligible costs: For a Comprehensive Grant Program
public housing agency, the eligible costs are: (i) Undertaking activities described in its approved
Annual Statement under 24 CFR 968.325 and approved 5-year action plan under 24 CFR
968.315(e)(5); (ii) Carrying out emergency work, whether or not the need is indicated in the
public housing agency’s approved comprehensive plan, including 5-year action plan, or annual
statement; (iii) Funding a replacement reserve to carry out eligible activities in future years,
subject to the restrictions set forth in paragraph (f) of this section; (iv) Preparing the
Comprehensive Plan and 5-year action plan under 24 CFR 968.315 and the Annual Submission
under 24 CFR 968.325, including reasonable costs necessary to assist residents to participate in a
meaningful way in the planning, implementation and monitoring process; and (v) Carrying out
an audit, in accordance with 24 CFR part 44.” Paragraph (b) states that “except in the case of
emergency work, a public housing agency shall only expend funds on a development for which
the public housing agency has determined, and HUD agrees, that the completion of the
improvements and replacements (for comprehensive grant program public housing agencies, as
identified in the Comprehensive Plan) will reasonably ensure the long-term physical and social
viability of the development at a reasonable cost (as defined in 24 CFR 968.105), or for essential
non-routine maintenance needed to keep the property habitable until the demolition or
disposition application is approved and residents are relocated.”

Notice PIH 2009-25, section 7, states that the public housing agency’s energy improvements
with Recovery Act capital funds must be reflected in its 5-year Capital Fund plan. Section 8
states that as long as Recovery Act capital funds do not supplant or substitute for energy
performance contract expenditures, they may be used in energy projects currently awarded or
underway that are developed to promote measurable or calculable energy and water savings in
                                                34
public housing. The use of Recovery Act capital funds, in cooperation with existing and pending
energy performance contracts, is encouraged when permitted. Cooperative use of the Recovery
Act capital funds with an energy performance contract may enable the public housing agency to
implement measures with long paybacks that would not otherwise be possible, such as windows
and renewable technologies. It also facilitates the implementation of energy-related capital
measures, such as replacement of underground steam, water, and gas lines. For agencies that
have already procured energy performance contractors, no additional procurement is required to
enable the contractor to perform the work using Recovery Act capital funds for a scope of work
integral to the energy performance contract, provided those energy improvement activities were
in the original contract and provided that other funds were not previously obligated for that
purpose and the procurement meets the Recovery Act procurement requirements (see Notice PIH
2009-12). In a situation, however, in which a public housing agency has an approved energy
performance contract but wishes to add an energy infrastructure improvement, the public
housing agency must first determine, pursuant to 24 CFR 85.36(d)(4), whether a contract for the
additional item is infeasible under small purchase procedures, sealed bids, or competitive
proposals. Then, if infeasible under these competitive methods, the public housing agency must
determine whether this additional item is available only from a single source or whether there is
a public “exigency” or emergency for this work which will not permit a delay resulting from
competitive solicitation. These determinations must be recorded in the public housing agency’s
procurement files. The source of funds (if Recovery Act capital funds) can be the reason for the
expediency determination.

Notice PIH 2010-34, section VI, states that it is important to note that a grantee’s ability to revise
the plan outlined in its application is limited. For example, a grantee may not reduce the amount
of leverage and match that it certified as firmly committed in its grant application; for category 4
applications, grantees are not able to change plans in ways that would cause failure to comply
with the commitments made in the application that resulted in receiving points in the
competition; and grantees cannot change project locations (for example, switch sites) for the
proposed grant activities. Grantees may not use the funds on more than one development or use
any excess funds on activities other than those specified in the grant application. There are other
limitations as well. No modification to the grant program outlined in the grantee’s application in
a significant way is permissible without the consultation and approval of HUD. Grantees should
consult the local HUD field office as soon as possible if they anticipate the need to modify their
grant program. Public housing agencies must use the Recovery Act competitive grant funds on
Capital Fund-eligible activities currently identified in their grant application. Section IX states
that competitive grant revisions are not permitted without HUD approval. If a public housing
agency anticipates a need to modify the grant program outlined in its application in a significant
way, it must submit a written request. For non-mixed-finance grants, requests are submitted to
the local HUD field office (these requests will be forwarded to the Office of Field Operations for
processing). For mixed-finance grants, requests are submitted to the assigned grant manager. In
all cases, a copy of the written request should be submitted to HUD’s Office of Capital of
Improvements. All requests will be considered on a case-by-case basis, and the public housing
agency will be notified of HUD’s determination.

HUD Handbook 7460.8, REV-2, section 3.2, states that the independent cost estimate is the
public housing agency’s estimate of the costs of the goods or services to be acquired under a
                                                 35
contract or a modification. It also helps the contracting officer determine the contracting method
to be used. If an outside party (whether compensated or not) assists in developing the
independent cost estimate, the public housing agency must take appropriate steps to ensure that
organizational conflicts of interest are avoided and that the outside party does not obtain a
competitive advantage from its advance knowledge of the public housing agency’s cost estimate.
The contracting officer shall prepare or have prepared an independent cost estimate
commensurate with the purchase requirement. The level of detail will depend upon the dollar
value of the proposed contract and the nature of the goods or services to be acquired.
Independent cost estimates are normally broken out into major categories of cost (for example,
labor, materials, and other direct costs such as travel, overhead, and profit). Commercially
available products and services may require less detail, as the marketplace tends to provide
current reliable pricing information for commercially available products; a public housing
agency may also not need to break out components. Noncommercial type requirements and
work designed specifically for the public housing agency will require much more extensive
estimation and a detailed independent cost estimate. The independent cost estimate serves as the
primary in-house gauge of cost and price reasonableness, but it should not be relied upon to the
exclusion of other sources of pricing information.

Chapter 8 of the handbook discusses noncompetitive proposals. Section 8.3 states that all
noncompetitive proposal awards must comply with 24 CFR 85.36(d)(4). Section 8.4 states that
award of contracts from noncompetitive proposals follows a process similar to that used for
competitive proposals. The proposal must be evaluated. Technical and cost aspects of the
proposal may be negotiated. The offeror must be determined to be responsible at the time of
award. Because there is no price competition, cost analysis is required. Costs or price must be
determined to be reasonable. Public housing agencies are required to submit proposed
noncompetitive contracts to HUD for preaward review and approval in accordance with 24 CFR
85.36(g) unless exempted under 24 CFR 85.36(g)(3). Section 8.5 states that procurement by
noncompetitive proposals shall be conducted only if a written justification is made as to the
necessity of using this method in accordance with the procedures described in the public housing
agency’s procurement policy. Approval to award a contract resulting from a noncompetitive
proposal does not eliminate or alter other requirements of 24 CFR 85.36 governing the contract.
The justification should include the following information: (1) a description of the requirement;
(2) a history of prior purchases and their nature (competitive versus noncompetitive); (3) the
specific exception in 24 CFR 85.36(d)(4)(i)(A) through (D) that applies; (4) a statement as to the
unique circumstances that require award by noncompetitive proposals; (5) a description of the
efforts made to find competitive sources; for example, advertisement in trade journals or local
publications, phone calls to local suppliers, issuance of a written solicitation, etc.; (6) a statement
as to efforts that will be taken in the future to promote competition for the requirement; and (7)
the signature of the contracting officer and any higher approving official as required by the
public housing agency’s policy. The contracting officer shall include the written justification
and approval in the contract file.

Section 10.1 of the handbook states that “there are many factors that the contracting officer
should consider in selecting and, when appropriate (for example, using competitive proposals),
negotiating the contract type. They include (2) Price analysis, with or without competition, may
provide a basis for selecting the contract type. The degree to which price analysis can provide a
                                                  36
realistic pricing standard should be carefully considered. (3) In the absence of effective price
competition and if price analysis is not sufficient, the cost estimates of the offeror and the public
housing agency provide the bases for negotiating contract pricing arrangements. It is essential
that the uncertainties involved in performance and their possible impact upon costs be identified
and evaluated so that a contract type that places a reasonable degree of cost responsibility upon
the contractor can be negotiated.”

Paragraph 10.3.A of the handbook states that “for every procurement, public housing agencies
are required to perform a cost or price analysis to determine that the price is reasonable. Public
housing agencies should always compare the prices offered with the independent cost estimate.
While this initial cost estimate may not be sufficient for price reasonableness, it can assist the
contracting officer in determining the extent to which the offerors understand the public housing
agency’s requirements. Sometimes, the comparison of prices may point out the need for
verification of bids (in sealed bid procurements) or negotiations (in the competitive proposal
methods) if prices of the different offerors vary widely or seem unusually high (or low)
compared to the independent cost estimate. If adequate competition does not exist, including
sole source procurements or noncompetitive proposals, the public housing agency must perform
a cost analysis, except as provided in paragraph 10.3.B. A cost analysis is an evaluation of the
separate elements that make up a contractor’s total cost proposal or price to determine whether
they are allowable, directly related to the requirement, and reasonable.”

Paragraph 10.3.B of the handbook provides alternative methods of determining that a price is
reasonable (other than cost analysis). “If, after appropriate solicitation efforts, the public housing
agency does not receive an adequate number of responses, the public housing agency may use
one of the following alternative methods of establishing price reasonableness without having to
conduct a formal cost analysis. In all such cases, the public housing agency should appropriately
support and document its actions in the procurement file. (1) Comparison to prior proposed
prices and contract prices with current proposed prices for the same or similar items/services.
The public housing agency should factor in any market changes, e.g., commodity price changes
or inflation, since the last time the item or service was purchased. (2) In comparison to
competitive price lists, published catalog or market prices of commodities and products, similar
indices and discount or rebate arrangements. (3) Professional estimate, either one prepared by
the public housing agency or outside party. The level of analysis should be commensurate with
the extent and complexity of the procurement.”

Paragraph 10.3.C of the handbook states that “a cost analysis must be conducted if one or more
of the following conditions apply: (1) All sole source and non competitive proposals. In
noncompetitive situations, no incentive exists for an offeror to submit a low price, and no price
competition exists for determining the reasonableness of the price.”

Paragraph 10.3.E of the handbook states with respect to price reasonableness, that “the
procurement file should be documented to support the actions taken. Documentation is required
to demonstrate price reasonableness, including any cost analyses, whenever (1) adequate
competition did not exist, (2) adequate competition existed but the public housing agency
received only one bid or proposal, or (3) the price obtained varied significantly from the

                                                 37
independent cost estimate, in which case the contracting officer should notate and explain the
reasons for the difference; for example, poor estimate, etc.”

Section 11.2 of the handbook states that “all progress inspections should be documented using an
appropriate public housing agency inspection report form. The inspection report should include
a description of the work completed and a determination as to whether the work is acceptable. If
progress payments are necessary, the public housing agency shall require the contractor to
prepare a construction progress schedule for each project. The public housing agency is
responsible for making progress payments to the contractor based on the approved schedule of
amounts for contract payments. The public housing agency should review each contractor
request and should approve the payment if the following conditions have been met (if the
contractor requests payment for items that have not been acceptably completed, the public
housing agency should delete those items and adjust the payment accordingly): (a) the
contractor’s request is consistent with the approved schedule of amounts for contract payments
and (c) the work covered by the payment has been performed in accordance with the
construction documents.” Form HUD-51000, Schedule of Amounts for Contract Payments,
further states that “no progress payments shall be made to the contractor unless a schedule of
amounts for contract payments in accordance with the construction contract is received.”

The Commission’s Capital Fund Stimulus Grant procurement policy, adopted by the board of
commissioners on September 25, 2009, states the following:


•   Section III, part B, states that for all purchases above the micropurchase ($2,500) threshold,
    the Commission must prepare an independent cost estimate before solicitation. The level of
    detail shall be commensurate with the cost and complexity of the item to be purchased.

•   Section III, part D, states that the board of commissioners designates the executive director as
    contracting officer. The executive director is responsible for ensuring that procurement
    actions comply with this policy. The executive director may delegate all or some
    procurement authority as is necessary and appropriate to conduct the business of the
    Commission. The executive director shall appoint delegations of contract authority in
    writing. The appointment must state the scope and limitations of authority. The executive
    director or designee(s) should ensure the following: “(3) For contracts exceeding $100,000,
    one or more public advertisement(s) shall be made over a minimum of 10 business days.
    Solicitation procedures are conducted in full compliance with the Federal standards set forth
    at 24 CFR 85.36; and/or the Recovery Act. (4) An independent cost estimate shall be
    prepared before solicitation for all procurement actions that exceed $2,500. (5) A cost or
    price analysis is conducted on responses for all procurement actions that exceed $2,500.”

•   Section IV, part E, states that competitive proposals are the primary alternative to the sealed
    bidding method of contracting for amounts above the Federal small purchase threshold
    (currently $100,000) and may also be used for small purchases. Unlike sealed bidding, the
    competitive proposal method permits (1) consideration of technical factors other than price,
    (2) discussion with offerors concerning offers submitted, (3) negotiation of contract price or
    estimated cost and other contract terms and conditions, (4) revision of proposals before the
                                                 38
    final contractor selection, and (5) the withdrawal of an offer at any time before the point of
    award. Award is normally made on the basis of the proposal that represents the best overall
    value to the Commission, considering price and other factors (for example, technical
    expertise, past experience, quality of proposed staffing, etc.) set forth in the solicitation and
    not solely the lowest price.

•   Section IV, part G, states that a single response to a competitive procurement, either a request
    for proposal or request for qualification, does not constitute sole source procurement. The
    Commission may award a contract based on a sole response and shall document the files to
    demonstrate that the procurement was appropriately advertised and determined to be fair and
    reasonable.

Section 28 of exhibit D of the Commission’s contractual agreements with Siemens states that
when a proposed modification requires the approval of HUD before its issuance (for example, a
change order that exceeds the public housing agency’s approved threshold), such modification
shall not be effective until the required approval is received by the public housing agency.




                                                  39
